            OFFICE OF
     THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 Payments Resulting from Disability Insurance
   Actions Processed via the Social Security
    Administration’s Manual Adjustment,
         Credit and Award Processes


      April 2006         A-04-05-15042




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   April 20, 2006                                                                     Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Payments Resulting from Disability Insurance Actions Processed via the Social Security
        Administration’s Manual Adjustment, Credit and Award Processes (A-04-05-15042)


        OBJECTIVE
        We performed this review to determine whether Disability Insurance (DI) payments
        resulting from actions completed through the Manual Adjustment, Credit and Award
        Processes (MADCAP) were accurate and approved.

        BACKGROUND
        The Social Security Administration (SSA) administers the Old-Age, Survivors and
        Disability Insurance (OASDI) program under Title II of the Social Security Act, as
        amended (Act). Section 223 of the Act 1 requires that SSA provide monthly DI benefits
        to eligible individuals who meet specific disability requirements as well as their eligible
        dependents. SSA’s automated systems process monthly DI payments. However, when
        SSA’s automated or direct input systems cannot completely process an action,
        authorized technicians at SSA’s program service centers (PSC) must manually process
        the actions through the MADCAP system. For example, through the MADCAP system,
        authorized PSC employees may process actions that include establishing a
        beneficiary’s Master Beneficiary Record (MBR); 2 initiating payment of DI benefits;
        updating or correcting information on the MBR (which may alter the monthly benefit
        amount); and terminating benefits.



        1
            42 U.S.C. § 423.
        2
          SSA establishes an MBR for each DI claimant. The MBR maintains pertinent information needed to
        accurately pay benefits to the claimant and all entitled dependents. The information maintained includes
        identification data (name, Social Security number, date of birth, address), earnings history, type and date
        of disability, monthly DI benefit amounts, and the reason for terminating or suspending benefit payments.
        Thus, any change in a claimant’s or dependent’s situation must be reflected on the MBR to ensure its
        integrity and the accuracy of benefit payments.
Page 2 - The Commissioner


For the period July 1 through September 30, 2004, SSA OASDI beneficiaries received
over $773.8 million in MADCAP payments, with single payments ranging between
$1,000 and $29,999.99. Most of these MADCAP payments, or about $578.4 million
(75 percent), were made to DI beneficiaries. The remaining payments were made to
retirees and eligible survivors of deceased beneficiaries.

SSA policy requires that each MADCAP payment $3,000 or greater be reviewed to
verify the accuracy and appropriateness of the action and payment. 3 Within the PSCs,
Post-Entitlement Technical Experts or Benefit Authorizers who did not initiate the action
perform these reviews. The reviews are not required before payments are released.
However, if a subsequent review reveals an erroneous payment, the beneficiary is
notified of the error and necessary collection actions or additional payments are
initiated.

SCOPE AND METHODOLOGY

We reviewed a random sample of 250 DI MADCAP payments. We selected our sample
from a universe of 85,200 DI MADCAP payments issued between July 1 and
September 30, 2004 with a value equal to or greater than $1,000. This universe of DI
MADCAP payments ranged from $1,000 to $29,999.99. Payments of $30,000 or more
are not paid through the MADCAP system but are paid through SSA’s Single Payment
System. Accordingly, we expanded our scope to include six MADCAP payments equal
to or greater than $29,999. We tested these six payments to ensure their accuracy and
to make certain payment through the MADCAP system was appropriate.

In general, DI MADCAP payments are issued to pay initial benefits to first time
claimants or result from a post-entitlement action. 4 Most (about 74 percent) of the
250 randomly selected MADCAP payments we sampled were to pay initial DI benefits,
with the remaining 26 percent issued as a result of post-entitlement actions for
individuals already receiving DI benefits. Also, five of the six additional MADCAP
payments selected were to pay initial DI benefits, while the remaining MADCAP
payment was issued as a result of a post-entitlement action.

Our audit tested more than one control attribute for some MADCAP payments. Based
on the source documents available, we determined whether (1) the action that created
the MADCAP payment was appropriate and accurate and (2) there was evidence of
approval for MADCAP payments $3,000 and greater. As a result, some MADCAP
payments have more than one reportable issue and are included as audit findings in
more than one section of the report. Further information regarding our scope and
methodology as well as our sampling methodology is in Appendices B and C.



3
    Program Operations Manual System (POMS), SM 00858.030.
4
 A post-entitlement, or “…adjustment action can be defined as any subsequent action taken after a claim
has been initially established.” POMS, SM 00810.001.
Page 3 - The Commissioner


RESULTS OF REVIEW
During our audit period, SSA issued some inaccurate MADCAP payments to DI
beneficiaries. Of the 250 randomly sampled MADCAP payments, 20 (8 percent) had
payment errors totaling $57,664: $47,061 in overpayments and $10,603 in
underpayments. We agreed with the MADCAP payment amounts issued for the
six additional MADCAP payments selected for our review. Based on these payment
errors, we estimate that approximately 6,816 MADCAP payments over $1,000 that SSA
issued during the period July 1 to September 30, 2004 had payment errors totaling
about $19.7 million. See Appendix C for our projection methodology.

Various mistakes contributed to these payment errors. For example, SSA staff did not
always
•   correctly adjust MADCAP payments for cases with workers’ compensation (WC)
    benefits,
•   reduce MADCAP payments for fees paid directly to attorneys,
•   correctly offset other SSA benefits from the MADCAP payments,
•   suspend or terminate payments when claimants were not eligible for benefits, or
•   consider benefits paid before the MADCAP payment.

Also, MADCAP payments of $3,000 or more did not always have documentation
evidencing the required approvals. While the payments may have been appropriately
reviewed and approved, we were unable to verify these actions because documentation
was not always available. Of the 250 randomly selected MADCAP payments, 166 were
for $3,000 or more and required appropriate review and approval. However,
112 (67 percent) payments lacked evidence of such approval. Because the
six additional MADCAP payments reviewed exceeded $3,000, they also required the
appropriate review and approval. However, we could not find evidence of approval for
one of these six MADCAP payments. Additionally, of the 20 MADCAP payments we
found to be incorrect, there were 12 payments that required review and approval.
However, for 8 of the 12 payments, we could not locate documentation to indicate the
appropriate review and/or approval was conducted. A diligent review of these MADCAP
payments may have identified and corrected the payment errors more promptly.

Finally, we determined five of the six DI MADCAP payments equal to or greater than
$29,999 were one of multiple payments involving one benefit action to the same
individual. Although the total benefits paid for each of the actions was correct, we
believe the payment for these benefit actions would have been more appropriately
made through the Single Payment System.
Page 4 - The Commissioner


MADCAP PAYMENT ERRORS
Of the 250 randomly selected MADCAP payments, 20 (or 8 percent) had payment
errors totaling $57,664: $47,061 in overpayments and $10,603 in underpayments.

MADCAP PAYMENTS FOR INITIAL BENEFITS HAD ERRORS

MADCAP payments for initial DI benefits usually cover several months and are a “catch
up” payment for benefits due from the beneficiary’s entitlement date to the date SSA
begins processing the monthly payments. The period between entitlement and first
payment is referred to as the initial award period. Of the 20 MADCAP payments with
errors, 14 (70 percent) were payments for benefits due in the initial award period. The
payment errors for these 14 MADCAP payments totaled $46,649. The payment errors
ranged from a $6,776 underpayment to a $9,323 overpayment. SSA representatives
reviewed these MADCAP payments and agreed a payment error occurred. As a result,
SSA initiated corrective action to release the underpayments or recover the
overpayments. Table 1 details the 14 MADCAP payments that were not paid at the
correct amount.

                 TABLE 1: MADCAP Payment Errors for Initial Benefits
               MADCAP            Correct        MADCAP            Type of
                Payment         Payment      Payment Error       Payment
                Amount          Amount                             Error
                       Errors Related to Workers’ Compensation
         1         $15,453          $6,130           $9,323   Overpayment
         2            8,261             140            8,121  Overpayment
         3            3,361               0            3,361  Overpayment
         4           20,278         20,854               576 Underpayment
                            Errors Related to Attorney Fees
         1          $5,640             $340          $5,300   Overpayment
         2          10,023            7,801            2,222  Overpayment
         3            2,715           1,090            1,625  Overpayment
         4            3,782           3,530              252  Overpayment
         5            2,169           3,972            1,803  Underpayment
               Errors Related to Variances Between Actual Benefits Paid
                             and Benefits Due per the MBR
         1         $17,644         $12,146           $5,498   Overpayment
         2            3,556           3,068              488  Overpayment
         3            1,324           1,620              296  Underpayment
                                      Other Errors
         1          $2,074          $1,066           $1,008   Overpayment
         2          21,848          28,624             6,776  Underpayment
                     Total Payment Errors           $46,649
Page 5 - The Commissioner


Payment Errors Resulted from WC Offset Mistakes

The amount of the monthly DI benefit and the resulting MADCAP payment may be
affected if the beneficiary receives State WC benefits. In accordance with Federal law,
SSA reduces (offsets) DI payments by the amount of any other disability benefit paid
“…under any other law or plan of the United States, a State, a political subdivision…or
an instrumentality of two or more States…” 5 Of the 14 MADCAP payment errors related
to initial benefits, 4 occurred because SSA miscalculated the WC offset amount.
•     In one example, the $15,453 MADCAP payment resulted in a $9,323 overpayment.
      SSA issued the MADCAP payment for benefits due during the claimant’s initial
      award period of March 2002 through July 2004. However, SSA did not include
      attorney fees and other related expenses when it prorated the WC lump sum
      settlement. 6 As a result, SSA should have paid the beneficiary $6,130, not $15,453.
•     In a second case, the $8,261 MADCAP payment was almost entirely overstated.
      The MADCAP payment was for benefits due during the claimant’s initial award
      period of June 2002 through March 2004. When it calculated benefits due for this
      period, SSA only considered the claimant’s WC lump sum settlement and
      overlooked $321.35 in weekly periodic WC payments. After including the periodic
      WC payments in the offset calculation, we determined the claimant was overpaid
      $8,121.

The Office of the Inspector General (OIG) has been studying the effect of WC offsets on
DI payments since 1996; the first audit report was issued in September 1998. See
Appendix D for a complete list of OIG audit reports addressing the payment accuracy of
DI cases with WC offsets. In prior WC-related reports, we acknowledged that the DI
workload involving WC offset was complex and that the Agency has made efforts to
improve the payment accuracy of this workload. Nevertheless, payment errors continue
to exist. As such, we continue to support the recommendations listed in the reports
found in Appendix D.

MADCAP Payments Were Not Always Adjusted for Attorney Fees

Five of the 14 error cases occurred because SSA staff did not properly adjust the initial
award payment for attorney fees. An individual applying for DI benefits may choose to
have legal or other representation at an SSA eligibility hearing. When a claimant elects
to have representation and is deemed eligible for DI benefits, the representative may
request direct payment of approved fees from SSA. SSA will deduct these fees from
the claimant’s MADCAP payment.

In one case, the MBR indicated SSA approved a fee of $5,300 for the beneficiary’s
attorney. However, the fee was not withheld from the beneficiary’s MADCAP payment.

5
    The Social Security Act, § 224, 42 U.S.C. § 424a.
6
 A lump sum settlement represents the total of all the remaining WC payments due the disabled worker.
The lump sum award must be prorated to determine the amount and length of time to offset the
beneficiary’s Title II DI benefits.
Page 6 - The Commissioner


In the other case, a $1,625 attorney fee was not withheld from the MADCAP payment.
As a result, the MADCAP payments were overstated $5,300 and $1,625, respectively.

MADCAP Payments Did Not Always Equal the Benefit Amount Recorded on the
Beneficiary’s MBR

For three other initial award MADCAP payments, we agreed with the monthly amount of
DI benefits SSA determined was due the beneficiaries. However, a discrepancy existed
between the actual amount paid and the amount SSA calculated was due.
In one case, SSA issued a $17,644 MADCAP payment for benefits accrued during a
beneficiary’s initial award period of February 1999 to August 2004. However, before
SSA made the $17,644 payment, it issued an $8,571 MADCAP payment for a portion of
these benefits. Therefore, SSA paid $26,215 in DI benefits for the initial award period
when only $20,717 should have been paid. As a result, SSA overpaid the beneficiary
$5,498 via these MADCAP payments.

Other Types of MADCAP Payment Errors

Of the two remaining MADCAP payments, one was understated because SSA
incorrectly suspended benefits when a beneficiary was not incarcerated for
30 continuous days. The second was overstated because SSA staff did not properly
adjust the initial award MADCAP payment to reflect other SSA benefits received.
•     In one case, a $21,848 MADCAP payment resulted in a $6,776 underpayment.
      During the initial award period, SSA withheld 8 months of benefits because the
      beneficiary was incarcerated. According to SSA policy, 7 for benefits to be
      suspended, the beneficiary must be confined for more than 30 consecutive days.
      However, during this 8-month period, the beneficiary was only incarcerated on
      weekends, not for 30 consecutive days. Therefore, the beneficiary was entitled to
      benefits during this 8-month period. As a result, the MADCAP payment was
      understated by $6,776.
•     In the second case, the claimant was entitled to both DI and Supplemental Security
      Income (SSI) 8 benefit payments for the same period. To avoid claimants receiving
      overpayments, the initial award MADCAP payment should be reduced by the
      amount of SSI payments already received. The beneficiary received $4,728 in SSI
      payments that should have been deducted from the MADCAP payment. However,
      only $3,720 was deducted. Thus, SSA personnel overstated the MADCAP payment
      by $1,008.




7
    POMS, GN 02607.025.D.
8
  SSI is authorized by Title XVI of the Act, Sections 1601 through 1637 of the Social Security Act,
42 U.S.C. §§ 1381 through 1383f. The basic purpose of SSI is “…to provide supplemental security
income to individuals who have attained age 65 or are blind or disabled…” Section 1601 of the Social
Security Act, 42 U.S.C. § 1381.
Page 7 - The Commissioner


MADCAP PAYMENTS FOR POST-ENTITLEMENT ACTIONS HAD ERRORS

After a beneficiary’s DI eligibility, SSA may become aware of events or circumstances
that affect the amount of DI benefits to which the individual is entitled or the individual’s
eligibility. For example, a MADCAP payment may occur (1) when a change in
circumstances causes an increase in benefits and SSA must retroactively adjust the
beneficiary’s DI benefits or (2) when undeliverable benefits are reissued to a corrected
address. Of the 20 MADCAP payments with errors, 6 (30 percent) were issued as a
result of post-entitlement actions. These six MADCAP payment errors totaled
$11,015 and ranged from a $1,152 underpayment to a $5,005 overpayment. For the six
cases, SSA agreed a payment error occurred and has initiated corrective action. Table
2 details the six MADCAP payments with payment errors.

             TABLE 2: MADCAP Payment Errors for Post-Entitlement Actions
              MADCAP          Correct         MADCAP          Type of
              Payment        Payment          Payment         Payment
               Amount        Amount             Error          Error
                          Errors Due to SSA Not Considering
                              Previous Benefit Payments
                  $5,706            $701           $5,005   Overpayment
                   1,872             624            1,248   Overpayment
                   1,228               70           1,158   Overpayment
                                      Other Errors
                  $1,310               $0          $1,310   Overpayment
                   1,142                0           1,142   Overpayment
                   3,618           4,770            1,152  Underpayment
                   Total Payment Errors           $11,015

MADCAP Payment Did Not Always Consider Previous Benefits Paid

For three of the six MADCAP payments with errors, SSA did not consider previous
benefits paid before issuing the MADCAP payment. In one case, the MADCAP
payment resulted in the receipt of duplicate benefits. For the two other MADCAP
payments with errors, SSA suspended or terminated the individuals’ DI benefits and
subsequently reinstated the benefits. However, when making the MADCAP payments,
SSA did not consider the beneficiaries had received a portion of the unpaid benefits.
•   For example, SSA issued a $5,706 MADCAP payment to correct what it believed
    was an underpayment that resulted from entitlement to higher DI benefits and the
    individual’s entitlement to survivor benefits for an 8-month period. We agreed the
    beneficiary was entitled to both DI benefits and, after the death of a spouse, survivor
    benefits in the amounts SSA established. However, after calculating what had
    already been paid, we determined the beneficiary was only due a $701 MADCAP
    payment. The MADCAP payment incorrectly included payment for survivor benefits
    previously paid to the beneficiary. Therefore, SSA overpaid the beneficiary $5,005.
Page 8 - The Commissioner


•     In a second case, SSA determined the beneficiary was no longer entitled and
      terminated DI benefits. The termination decision was later reversed, and the
      claimant was owed $1,872 for 3 months of unpaid benefits. While the termination
      decision was being appealed, the beneficiary received two benefit payments—a
      monthly payment and a critical payment. Yet, when determining the amount of the
      MADCAP payment to compensate for the termination reversal, SSA failed to
      consider the benefits the individual had already received. As a result, SSA overpaid
      the beneficiary $1,248.

Other Types of MADCAP Payment Errors

In the remaining three post-entitlement MADCAP actions, payment errors resulted
because (1) the amount of DI benefits SSA calculated did not agree with the amounts
paid, (2) benefits should have been terminated when a dependent beneficiary turned
age 18, and (3) SSA did not return all excess benefits withheld to pay the attorney fee.
•     In the first case SSA issued a $1,310 MADCAP payment to correct an
      underpayment resulting from an increase in DI benefits due the beneficiary.
      However, when we compared the total benefits due to the total benefits paid for the
      period the benefits were corrected, we determined the beneficiary was overpaid $45.
      As a result, the beneficiary was not due the $1,310 MADCAP payment.
•     In the second case, SSA issued a $1,142 MADCAP payment for 2 months of unpaid
      benefits. However, the MADCAP payment was not due because the dependent
      beneficiary’s payments should have been terminated at age 18. Benefits may
      continue after age 18 if the dependent beneficiary is a full-time student. 9 However,
      we found no evidence the dependent beneficiary was a full-time student.

DOCUMENTATION WAS NOT AVAILABLE TO SUBSTANTIATE
REVIEW OF MADCAP PAYMENTS
If a MADCAP payment is issued for $3,000 or more, SSA’s policy 10 requires a complete
review of the action to verify its accuracy. From our sample of 250 randomly selected
MADCAP payments, 166 met the $3,000 threshold and were subject to the policy.
However, 112 (67 percent) of these payments lacked documentation to substantiate the
review and approval of the actions taken and the payment amount. All six of the
additional MADCAP payments selected for review exceeded $3,000 and required a
review of the actions taken and approval of the payment amount. However, one of
these MADCAP payments lacked evidence of such approval. While these payments
may have been appropriately reviewed and approved, we were unable to verify these
actions because documentation was not available. We did note that 12 of the
20 incorrect MADCAP payments we identified required a review and approval; however,
evidence documenting such approvals was unavailable for 8 of these payments and the
payment errors were not detected before our review.

9
    POMS, RS 00203.035.
10
     POMS, SM 00858.030.
Page 9 - The Commissioner



SSA’s policy does not provide specific guidance on how or where the review and
approval should be documented or how long the evidence should be retained.
Depending on local procedures, annotation of a technician’s review and approval and
retention of the evidence can vary among and within SSA’s PSCs. For example, the
type of document or action taken determines the retention period, whether short-term or
long-term. If a payment’s statement of approval was attached to a short-term retention
document, this evidence would not be available after 120 days. Because our review
scope contained a sample of MADCAP payments issued between July 1 and
September 30, 2004, we are unable to accurately determine the number of MADCAP
payments that were reviewed and approved. Rather, we could only identify those
payments that lacked documentation to substantiate a review and approval.

PAYMENT THROUGH THE SINGLE PAYMENT SYSTEM WOULD HAVE
BEEN MORE APPROPRIATE FOR SOME MADCAP ACTIONS
Because payments of $30,000 or more are paid through SSA’s Single Payment System
(SPS), we reviewed six MADCAP payments equal to or greater than $29,999 to ensure
payment through the MADCAP system was appropriate. Five of the six DI MADCAP
payments represented portions of larger payments due the beneficiaries. Although the
total benefits paid were correct, we believe it would have been more appropriate to pay
the total benefits through the SPS. Also, if a payment issued through SPS requires a
review, benefits are not released until approved. For example, SPS payments of
$50,000 or more require management approval. Therefore, payments made through
the SPS provide an additional layer of control in that the payments are reviewed before
issuance. Table 3 details the MADCAP payments of $29,999 or more that were part of
multiple payments involving one type of benefit action.

              TABLE 3: Multiple Payments for One Type of Benefit Action
             Reason for      Processing       Payment         Payment
              Payment          System           Date           Amount
                          MADCAP (1)           07/07/2004       $29,999.97
                          MADCAP (2)           07/08/2004        29,999.97
            Initial Award
                          MADCAP               07/12/2004         5,766.51
                                                    Total       $65,766.45
                          MADCAP (3)           09/01/2004       $29,999.99
              Survivor
                          MADCAP               09/14/2004        10,596.01
              Benefits
                                                    Total       $40,596.00
                          MADCAP (4)           08/23/2004       $29,999.00
            Initial Award SPS                  08/26/2004        99,617.00
                                                    Total       129,616.00
                          MADCAP (5)           08/20/2004       $29,999.28
            Initial Award SPS                  09/21/2004        11,394.00
                                                    Total        41,393.28
           Note: The numbers 1 through 5 shown in the ( ) indicate the MADCAP
           payments tested as part of our review.
Page 10 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
MADCAP payments are issued for various reasons—to pay initial benefits or as a result
of post-entitlement actions. The MADCAP payment errors we identified resulted from
mistakes in processing various claims actions. In general, these mistakes seemed to
occur because SSA staff did not recognize all of the factors that affect DI benefits.
Some of the MADCAP payment errors could have been avoided if SSA staff verified
actions taken to the source documentation, such as attorney fee agreements, WC
settlement agreements, and prisoner incarceration records. Because SSA staff
processes numerous complex actions, diligence is critical to ensuring payment
accuracy. We recommend that SSA:
1. Issue a reminder and, if necessary, further guidance to responsible PSC staff
   requiring that all underlying actions resulting in MADCAP payments be verified to the
   supporting documentation.
2. Provide specific guidance on documenting the review and approval of MADCAP
   payments $3,000 or more and the retention of review evidence.
3. Ensure payments of $30,000 or more, which are related to the same individual and
   action, are processed through SPS.

AGENCY COMMENTS

SSA agreed with all our recommendations. However, the Agency expressed a concern
about the scope of our audit work. Specifically, the Agency stated that our audit only
included DI cases processed by the Southeastern Program Service Center, when, in
fact, most of the disability cases are processed in the Office of Disability Operations.
See Appendix E for the full text of SSA’s comments.

OIG RESPONSE
We concur with SSA’s response to our specific recommendations. However, further
clarification of the scope of our work is necessary to address the Agency’s stated
concern. Our audit tested a random sample of MADCAP payments. The audit sample
was selected from a defined universe of MADCAP payments processed by all
responsible SSA components—nationwide. During our audit, we visited the
Southeastern Program Service Center to obtain an understanding of how MADCAP
payments are processed. However, our audit sample covered MADCAP actions
processed by SSA PSCs across the country, including the Office of Disability
Operations.



                                               S
                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Prior Audit Reports
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
DI       Disability Insurance
MADCAP   Manual Adjustment, Credit and Award Processes
MBR      Master Beneficiary Record
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
POMS     Program Operations Manual System
PSC      Program Service Center
SPS      Single Payment System
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
WC       Workers’ Compensation
                                                                      Appendix B

Scope and Methodology
To accomplish our objectives, we reviewed a random sample of 250 Disability
Insurance (DI) Manual Adjustment, Credit and Award Processes (MADCAP) payments.
Payments of $30,000 or more are not paid through the MADCAP system, but are paid
through the Social Security Administration’s (SSA) Single Payment System.
Accordingly, we expanded our scope to include six MADCAP payments equal to or
greater than $29,999. We tested these six payments to ensure their accuracy and
make certain payment through the MADCAP system was appropriate. Based on the
source documents available, we determined whether (1) the action creating the
MADCAP payment was appropriate and accurate and (2) documentation was present
showing evidence of approval for MADCAP payments $3,000 and greater. As a result,
some MADCAP payments have more than one reportable issue and are included as
audit findings in more than one section of the report.

We deemed a MADCAP payment to have a reportable error when our review
determined that

•   an underpayment error was equal to or greater than 1 percent of the beneficiary’s
    total case payments (up to the MADCAP payment) or

•   the overpayment was equal to or greater than 3 percent of the beneficiary’s total
    case payments (up to the MADCAP payment) or

•   the underpayment or overpayment error was equal to or greater than $500.

We also:

•   Interviewed SSA program service center personnel regarding procedures to process
    and review MADCAP payments.

•   Reviewed relevant laws and SSA’s policies and procedures.

•   Reviewed previous reports pertaining to MADCAP payments.

•   Queried SSA’s Master Beneficiary Record; Supplemental Security Record; Payment
    History Update System; Retirement, Survivors, and Disability Insurance Payment
    History and Worksheet; Master Earnings File; and Workers’ Compensation
    worksheets.

•   Obtained SSA’s DI case folders and paperless files and reviewed all relevant
    documents related to the DI MADCAP payment.


                                           B-1
We performed our audit work in Atlanta, Georgia. Additionally, we visited the
Southeastern Program Service Center in Birmingham, Alabama. We conducted our
work from January through October 2005. The electronic data used for this audit were
sufficiently reliable to meet our audit objectives. The entities audited were the Offices of
Income Security Programs and Disability Programs under the Deputy Commissioner for
Disability and Income Security Programs. We conducted our audit in accordance with
generally accepted government auditing standards.




                                            B-2
                                                                    Appendix C

Sampling Methodology and Results
Sampling Methodology
In total, we reviewed a random sample of 250 Title II Disability Insurance (DI) Manual
Adjustment, Credit and Award Processes (MADCAP) payments. We selected our
sample from a universe of 85,200 DI MADCAP payments equal to or greater than
$1,000 that were issued between July 1 and September 30, 2004. The universe of DI
MADCAP payments ranged from $1,000 to $29,999.99. Because payments of
$30,000 or more are not paid through the MADCAP system, but are paid through the
Social Security Administration’s Single Payment System, we expanded our scope to
include six MADCAP payments equal to or greater than $29,999. We tested these
six payments to ensure their accuracy and make certain payment through the MADCAP
system was appropriate.

The following chart details our sample selections.

MADCAP Payments by          Population  Population        Sample        Sample
   Dollar Amount            Decisions     Dollars          Size         Dollars
  $1,000 to $29,998.99          85,194 $578,231,620        250         $1,719,603
 $29,999 to $29,999.99                6     179,997         6             179,997
                Totals          85,200 $578,411,617        256         $1,899,600




                                           C-1
Sampling Results

Overall Results – MADCAP Payments Resulting in a Payment Error

                    Projections of Attribute and Variable Appraisals

                    MADCAP Payments Resulting in a Payment Error
                            Attribute Appraisal Projections
 Population and Sample Data                                            Decisions
 Total Population                                                            85,194
 Sample Size                                                                   250
 MADCAP Payments Resulting in a Payment Error                                      20

 Projection to Population                                              Projections
 Lower Limit                                                                  4,573
 Point Estimate                                                               6,816
 Upper Limit                                                                  9,719

                            Variable Appraisal Projections
 Population and Sample Data                                              Dollars
 Total Population                                                      $578,231,620
 Sample Size                                                             $1,719,603
 MADCAP Payment Errors                                                      $57,664

 Projection to Population                                              Projections
 Lower Limit                                                             $9,901,029
 Point Estimate                                                         $19,650,378
 Upper Limit                                                            $29,399,727


Note: All projections were made at the 90-percent confidence level.




                                            C-2
                                                                    Appendix D

Prior Audit Reports
        Social Security Administration, Office of the Inspector General
 Reports Related to Payment Accuracy in Disability Insurance Cases Involving
                       Workers’ Compensation Offsets
  Common
Identification                                                          Date
   Number                              Report Title                    Issued
                 Effects of State Awarded Workers’
A-04-96-61013    Compensation Payment on Social Security            September 1998
                 Benefits
                 Worker’s Compensation Unreported by Social
A-04-98-64002                                                       December 1999
                 Security Beneficiaries
                 The Social Security Administration Incorrectly
                 Paid Attorney Fees on Disability Income Cases
A-04-98-62001                                                        March 2000
                 When Worker’s Compensation Payments Were
                 Involved
                 The Social Security Administration’s Workers’
A-06-03-13022    Compensation Data Match with the State of            April 2003
                 Texas
                 Pending Workers’ Compensation: The Social
A-08-02-12064    Security Administration Can Prevent Millions in      June 2003
                 Title II Disability Overpayments
                 Title II Disability Insurance Benefits with
A-04-02-21054    Worker’s Compensation Underpayment Errors            July 2003
                 Exceeding $70,000
                 The Social Security Administration’s Clean-up of
A-04-03-13042    Title II Disability Insurance Cases with a          October 2004
                 Workers’ Compensation Offset
                 The Social Security Administration’s Match of
A-06-05-15024    Disability Insurance Records with Texas             August 2005
                 Workers’ Compensation Payment Data
                 Follow-up of Pending Workers’ Compensation:
A-08-05-25132    The Social Security Administration Can Prevent     September 2005
                 Millions in Title II Disability Overpayments
                  Appendix E

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      April 3, 2006                                                           Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General
From:      Larry W. Dye /s/
           Chief of Staff
Subject:   Office of the Inspector General (OIG) Draft Report, "Payments Resulting from Disability
           Insurance Actions Processed via the Social Security Administration's Manual Adjustment, Credit
           and Award Processes" (A-04-05-15042) -- INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff on extension 54636.

           Attachment:
           SSA Response




                                                          E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "PAYMENTS RESULTING FROM DISABILITY INSURANCE
ACTIONS PROCESSED VIA THE SOCIAL SECURITY ADMINISTRATION'S
MANUAL ADJUSTMENT, CREDIT AND AWARD PROCESSES" (A-04-05-
15042) -- INFORMATION

Thank you for the opportunity to review and comment on the draft report.

The report identified general workload categories, such as worker’s compensation,
attorney fees and paid vs. payable that contribute to incorrect payment amounts. We
agree that these are error-prone workloads. SSA has been working to improve the
accuracy of these and other workloads through activities such as the Worker’s
Compensation Cleanup and refresher training on recurring problem areas. We also issue
local procedural supplements, such as the Southeast Program Service Center (SEPSC)
Operations Bulletin 04-1253, regarding the proper way to process Single Payment
System (SPS) payments.

We note, per Appendix B, Scope and Methodology, that the audit work was performed in
the SEPSC. Since the bulk of the disability cases are processed in the Office of
Disability Operations, we believe including the work of that processing center might
have provided a more accurate assessment of the extent of the issues identified in the
report.

We note OIG’s concern that they could not verify that certain payments were properly
approved. The processing centers have been operating in a paperless environment for
about six years with a 120-day retention period that has proven sufficient for their
business processes, including local quality reviews. Currently, almost all computer-
generated output has a short-term retention. The Manual Adjustment, Credit and Award
Processing (MADCAP) Direct Data Entry (MACADE) input that resulted in the
MADCAP action, as well as the resulting Master Beneficiary Record (MBR) and any
notices released, are available long-term. Should OIG wish to review the payments of
$3000 or more in the future, they could alert the processing centers within the 120-day
period and the documentation could be obtained.

Our specific responses to the report's recommendations are provided below.

Recommendation 1

Issue a reminder and, if necessary, further guidance to responsible PSC staff requiring
that all underlying actions resulting in MADCAP payments be verified to the supporting
documentation.

Response:

We agree. Any effort to help ensure that the proper payment is made through MADCAP
would be beneficial. We will issue national reminders through an Administrative
Message by April 21, 2006.

                                          E-2
Recommendation 2

Provide specific guidance on documenting the review and approval of MADCAP
payments $3,000 or more and the retention of review evidence.

Response:

We agree. We will include reminders in our Administrative Message (see response to
Recommendation 1) about documenting the review and approval of MADCAP payments
of $3,000 or more and the retention of review evidence. However, as discussed above,
we have concerns regarding the retention of review evidence.

Recommendation 3

Ensure payments of $30,000 or more, which are related to the same individual and action,
are processed through SPS.

Response:

We agree. SPS has built-in edits that help prevent some incorrect payments. (For
example, SPS has an online edit, "ATTORNEY PAYMENT EXCEEDS AMOUNT
WITHHELD," which is generated when the SPS amount exceeds the attorney fee
withheld amount reflected on the MBR.) Accordingly, we will include a reminder in our
Administrative Message (see response to Recommendation 1).




                                          E-3
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1605

   Frank Nagy, Audit Manager, (404) 562-5552

Acknowledgments

In addition to those named above:

   Teaketa Turner, Senior Auditor

   Shane Henley, Auditor

   Charles Lober, Information Technology Specialist

   Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-04-05-15042.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
